               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




     Independent Report on Employee
          Benefits, Withholdings,
     Contributions, and Supplemental
     Semiannual Headcount Reporting
    Submitted to the Office of Personnel
               Management

                  Attestation Report


                                         September 25, 2012

Report Number FT-AR-12-013
                                                                  September 25, 2012
                                            Independent Report on Employee Benefits,
                                                    Withholdings, Contributions, and
                                                 Supplemental Semiannual Headcount
                                                  Reporting Submitted to the Office of
                                                              Personnel Management
                                                         Report Number FT-AR-12-013



BACKGROUND:                                    Service’s payroll system that had
This attestation engagement is an              different campaign names and
annual requirement to comply with the          addresses from those the OPM
U.S. Office of Management and                  provided. We also identified 81 of
Budget’s Circular Number A-136,                85,824 employees whose campaign
Financial Reporting Requirements, and          codes in the Postal Service’s payroll
Bulletin 07-04, Audit Requirement for          system did not match the OPM’s
Federal Financial Statements.                  campaign codes associated with the
Additionally, the U.S. Office of               employee’s work location. This included
Personnel Management (OPM)                     13 employees at nine work locations
manages the Combined Federal                   that have no official campaign.
Campaign and ensures compliance with
Combined Federal Campaign                      We validated the correct withholdings
regulations.                                   and contributions were paid by the
                                               Postal Service and employees. Also,
At the request of the OPM Office of            management corrected inactive
Inspector General, we performed                campaigns and campaign names and
procedures agreed upon by the                  addresses and are reviewing campaign
inspector general and the chief financial      codes. Therefore, the information
officer of the OPM. Our objectives were        provided to the OPM was reasonable.
to assist the OPM in assessing the
reasonableness of employee benefit             We were not engaged to and did not
withholdings, Postal Service benefit           perform an audit, the objective of which
contributions, and employee benefit            would have been the expression of an
enrollment information; and to confirm         opinion on the withholdings and
Combined Federal Campaign program              contributions. Accordingly, we do not
accounting codes and payroll data to           express such an opinion. Had we
OPM records.                                   performed additional procedures, we
                                               might have found other matters that we
WHAT THE OIG FOUND:                            would have reported.
We found differences between the life
insurance election information in payroll      WHAT THE OIG RECOMMENDED:
records and the Life Insurance Election        This report is provided for information
form for two employees of the 25               only, and we offered no
reviewed.                                      recommendations. Accordingly, no
                                               management action is required.
We identified 32 of 223 Combined
Federal Campaigns in the U.S. Postal           Link to review the entire report
September 25, 2012

MEMORANDUM FOR:            ANTHONY J. VEGLIANTE
                           EXECUTIVE VICE PRESIDENT, CHIEF HUMAN
                            RESOURCES OFFICER

                           TIMOTHY F. O’REILLY
                           VICE PRESIDENT, CONTROLLER




FROM:                      Mark W. Duda
                           Assistant Inspector General
                            for Audit

SUBJECT:                   Attestation Report – Independent Report on Employee
                           Benefits, Withholdings, Contributions, and Supplemental
                           Semiannual Headcount Reporting Submitted to the Office of
                           Personnel Management (Report Number FT-AR-12-013)

Attached is a copy of the subject report provided to the U.S. Office of Personnel
Management (OPM) Office of Inspector General (OIG) (Project Number
12BD014FT000). This report is provided for information only and requires no
management action.

At the request of the OPM OIG, we performed the agreed-upon procedures in
accordance with generally accepted government auditing standards and attestation
standards established by the American Institute of Certified Public Accountants. We
performed the procedures solely to assist the OPM in assessing the reasonableness of
employee withholdings and U.S. Postal Service contributions in the Report of
Withholdings and Contributions for Health Benefits, Life Insurance and Retirement for
three selected payroll periods. We also verified enrollment information in the
Supplemental Semiannual Headcount Report for September 2011 and March 2012.
Finally, we confirmed the Combined Federal Campaign program accounting codes and
payroll data with the OPM records for one payroll period.
We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact John E. Cihota, deputy
assistant inspector general for financial accountability, or Lorie Nelson, director,
Financial Reporting, at 703-248-2100.

Attachments

cc: Stephen J. Masse
    Jack L. Meyer
    Jean D. Parris
    Corporate Audit and Response Management
September 25, 2012

MEMORANDUM FOR:            HONORABLE PATRICK E. MCFARLAND
                           INSPECTOR GENERAL
                           U.S. OFFICE OF PERSONNEL MANAGEMENT




FROM:                      Mark W. Duda
                           Assistant Inspector General
                            for Audit

SUBJECT:                   Attestation Report – Independent Report on Employee
                           Benefits, Withholdings, Contributions, and Supplemental
                           Semiannual Headcount Reporting Submitted to the Office of
                           Personnel Management (Report Number FT-AR-12-013)

This report presents the results of our attestation engagement of procedures agreed
upon by the inspector general and the chief financial officer of the U.S. Office of
Personnel Management (OPM) (Project Number 12BD014FT000).

At the request of the OPM Office of Inspector General (OIG), we performed the
agreed-upon procedures in accordance with generally accepted government auditing
standards and attestation standards established by the American Institute of Certified
Public Accountants. We performed the procedures solely to assist the OPM in
assessing the reasonableness of employee withholdings and U.S. Postal Service
contributions in the Report of Withholdings and Contributions for Health Benefits, Life
Insurance and Retirement for three selected payroll periods. We also verified enrollment
information in the Supplemental Semiannual Headcount Report for September 2011
and March 2012. Finally, we confirmed the Combined Federal Campaign program
accounting codes and payroll data with the OPM records for one payroll period.

We were not engaged to and did not perform an audit, the objective of which would
have been the expression of an opinion on the withholdings and contributions for health
benefits, life insurance, and retirement; enrollment information; and the Combined
Federal Campaign program. Accordingly, we do not express such an opinion. Had we
performed additional procedures, we might have found other matters that we would
have reported.

This report is intended solely for the use of the inspector general and the chief financial
officer of the OPM and should not be used by those who have not agreed to the
procedures and taken responsibility for the sufficiency of the procedures for their
purposes.

If you have any questions or need additional information, please contact John E. Cihota,
deputy assistant inspector general for financial accountability, or Lorie Nelson, director,
Financial Reporting, at 703-248-2100.

Attachments

cc: Stephen J. Agostini
    Michael R. Esser
    William W. Scott, Jr.
Independent Report on Employee Benefits, Withholdings, Contributions,                                              FT-AR-12-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Unverified Life Insurance Elections ................................................................................. 2

Unmatched Combined Federal Campaign Names and Addresses ................................. 2

Unmatched Combined Federal Campaign Codes ........................................................... 3

Appendix A: Additional Information ................................................................................. 5

   Background ................................................................................................................. 5

   Objectives, Scope, and Methodology .......................................................................... 5

   Prior Audit Coverage ................................................................................................... 7

Appendix B: Agreed-Upon Procedures ........................................................................... 8

Appendix C: Unmatched Combined Federal Campaign Names and Addresses........... 20

Appendix D: Unmatched Combined Federal Campaign Codes .................................... 22
Independent Report on Employee Benefits, Withholdings, Contributions,            FT-AR-12-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

Introduction

This report presents the results of our attestation engagement of procedures agreed
upon by the inspector general and the chief financial officer of the U.S. Office of
Personnel Management (OPM) (Project Number 12BD014FT000). The report responds
to a request from the OPM to assist in assessing the reasonableness of employee
withholdings and U.S. Postal Service contributions reported in the Report of
Withholdings and Contributions for Health Benefits, Life Insurance and Retirement for
the payroll periods ended August 26, 2011; February 24, 2012; and May 18, 2012; the
enrollment information reported in the Supplemental Semiannual Headcount Report for
September 2011 and March 2012; and the Combined Federal Campaign program
information for the payroll period ended February 24, 2012. This attestation
engagement addresses financial risk. See Appendix A for additional information about
this attestation engagement and Appendix B for a description of the procedures.

This attestation engagement is an annual requirement to comply with the Office of
Management and Budget’s Circular Number A-136, Financial Reporting Requirements,
and Bulletin 07-04, Audit Requirement for Federal Financial Statements. Additionally,
the OPM manages the Combined Federal Campaign and ensures compliance with
Combined Federal Campaign regulations.

Conclusion

Generally, we verified the employee withholdings, Postal Service contributions, and
enrollment information reported and transferred to the OPM for health benefits, life
insurance, and retirement; and campaign names, campaign addresses, and campaign
codes from the Postal Service’s payroll system to those provided by the OPM. However,
we did identify the following issues:

     Differences between life insurance election information in payroll records and that
      shown on the election forms for two of 25 employees reviewed.

     Inactive Combined Federal Campaigns or differences between names and
      addresses in the payroll system from those provided by OPM for 32 of 223
      campaigns.

     Campaign codes in the payroll system did not match the OPM’s campaign code
      associated with 81 of 85,824 employee’s work location.

Further, we could not validate campaign codes with original pledge forms. We have
identified similar issues in previous reports.1


1
    See Appendix A Prior Audit Coverage.
                                                   1
Independent Report on Employee Benefits, Withholdings, Contributions,                                      FT-AR-12-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

We validated the correct withholdings and contributions were paid by employees and
the Postal Service, and the Postal Service contacted the employees and confirmed life
insurance elections per the payroll records were valid. Also, management corrected
inactive campaigns and campaign names and addresses, and is reviewing campaign
codes to ensure they match the OPM’s campaign codes. Therefore, the information
provided to the OPM was reasonable.

This report is provided for information only, and we offered no recommendations.
Accordingly, no management action is required.

Unverified Life Insurance Elections

We identified differences between life insurance election information in payroll records
and the Life Insurance Election forms for two employees of 25 reviewed.2 Table 1
specifies the differences.

                            Table 1. Life Insurance Election Differences

                                                                                    Per Election Forms
      Employee                       Per Payroll Records
                                                                                          on File
                           Basic                                                   Basic
            A
                           Additional Coverage/4 Times Basic Pay                   Standard $10,000
                           Basic
            B              Standard $10,000                                          Basic
                           Additional Coverage/2 Times Basic Pay
    Source: Postal Service payroll system and official personnel folders.

The Life Insurance Election forms are the original source documents and initiate
withholdings, contributions, changes, and cancellations from payroll records.
Additionally, the OPM requires the Postal Service to keep the forms on file as a
permanent record. However, we could not confirm current life insurance elections with
original source documents because the most recent Life Insurance Election forms were
inadvertently lost, misfiled, or destroyed.3 We did verify that correct withholdings and
contributions were paid according to the processed Notification of Personnel Actions4
and earnings statements. Additionally, the Postal Service contacted the employees and
confirmed life insurance elections per the payroll records were valid.

Unmatched Combined Federal Campaign Names and Addresses

We identified 32 of 223 campaigns in the Postal Service’s payroll system that had
different campaign names and addresses from those provided by the OPM or were no
longer active campaigns.5 Chart 1 categorizes the differences.

2
  Procedure Number 2.i.
3
  We were able to find the most recent Life Insurance Election forms for the other employees reviewed.
4
  Based on the Life Insurance Election form, the Postal Service initiates a Notification of Personnel Action to start or
modify life insurance withholdings.
5
  Procedure Number 8.

                                                            2
Independent Report on Employee Benefits, Withholdings, Contributions,                            FT-AR-12-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                  Chart 1. Unmatched Campaigns




                 Source: Postal Service payroll system and OPM Combined Federal Campaign data.

The Postal Service uses electronic funds transfer to transmit employee contributions to
the campaigns; therefore, bank routing numbers and account numbers are the primary
data elements used to ensure a successful transaction. However, if an electronic funds
transfer is unsuccessful, the Postal Service issues and mails a check to the campaign.
Accordingly, the campaign names and addresses in the Postal Service’s payroll system
exist as a secondary control. Before mailing the check, the Postal Service verifies the
name and address in its payroll system with the most recent OPM monthly update to
ensure the mailing address is current.6 On August 16, 2012, the Postal Service
informed us it had corrected the campaign differences within its payroll records. See
Appendix C for unmatched Combined Federal Campaign names and addresses.

Unmatched Combined Federal Campaign Codes

We identified 81 of 85,824 employees whose campaign codes in the Postal Service’s
payroll system did not match the OPM’s campaign code associated with the employee’s
work location.7 This includes 13 employees at nine work locations that have no official
campaign.8 The differences could be attributed to inaccurate OPM information or Postal
Service coding errors. For example, we identified 15 employees working in Fayetteville,
TN, within Lincoln County, who participated in the Combined Federal Campaign
program. OPM information9 showed that Lincoln County, TN, was included in the
Tennessee Valley Combined Federal Campaign.10 The Postal Service submitted the

6
  Electronic funds transfer is generally used; it is rare that a check is issued.
7
  Procedure Number 9.
8
  Cleveland, MS; Louisville, MS; McCarley, MS; New Hebron, MS; Franklin, NC; Blacksburg, SC; Easley, SC; Lamar,
SC; and Crosbyton, TX.
9
  Provided to the U.S. Postal Service Office of Inspector General on August 8, 2012.
10
   Campaign Code 0004.

                                                       3
Independent Report on Employee Benefits, Withholdings, Contributions,                 FT-AR-12-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

contributions from these 15 employees to the Tennessee Regional Combined Federal
Campaign,11 which created a reportable difference. Management advised they
confirmed with the OPM’s website that in 2010, the Tennessee Regional Combined
Federal Campaign added Lincoln County, TN, formerly part of the Tennessee Valley
Combined Federal Campaign. We validated the change and agreed a reportable
difference, in this instance, did not exist. Except for the example cited, we did not
validate the accuracy of the OPM’s campaign data or other potential causes for the
differences between the Postal Service’s payroll data and the OPM’s campaign data
because it was beyond the scope of this attestation engagement. See Appendix D for
the list of unmatched Combined Federal Campaign codes we identified and provided to
Postal Service management.

We judgmentally selected two of the 81 employees and requested the original pledge
forms to verify the campaign codes.12 However, we were unable to obtain the original
pledge forms because, although the Combined Federal Campaign program requires
agencies to keep pledge forms for three pledge periods, the Postal Service retains the
pledge forms for no more than 6 months in accordance with the Privacy Act of 1974, as
amended.13

We were not engaged to and did not perform an audit, the objective of which would
have been the expression of an opinion on the withholdings and contributions for health
benefits, life insurance, and retirement; enrollment information; and the Combined
Federal Campaign program. Accordingly, we do not express such an opinion. Had we
performed additional procedures, we might have found other matters that we would
have reported.

This report is intended solely for the use of the inspector general and the chief financial
officer of the OPM and should not be used by those who have not agreed to the
procedures and taken responsibility for the sufficiency of the procedures for their
purposes. This report is provided for information only and requires no management
action. We offered no recommendations.




11
   Campaign Code 0811.
12
   Procedure Number 10.
13
   Combined Federal Campaign Operational Guidelines, Publication 530, October 2011.

                                                      4
Independent Report on Employee Benefits, Withholdings, Contributions,                            FT-AR-12-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

                               Appendix A: Additional Information

Background

The Postal Service Information Technology and Accounting Services in Eagan, MN, is
responsible for calculating, disbursing, and reporting employee withholdings and Postal
Service contributions for health benefits, life insurance, and retirement. As of
March 2, 2012, the Postal Service employed more than 643,400 people (about 529,000
with benefits).

During each payroll period reviewed,14 the Postal Service withheld more than
$83 million and contributed about $303 million towards benefits. The Postal Service
transmitted these funds to the OPM via the Retirement and Insurance Transfer System
and prepared the Report of Withholdings and Contributions for Health Benefits, Life
Insurance and Retirement for each payroll period detailing the amounts associated with
each benefits category. Additionally, the Postal Service submitted to the OPM the
Supplemental Semiannual Headcount Report detailing the number of employees
associated with each benefit category for September 2011 and March 2012.

The Combined Federal Campaign is the world’s largest annual workplace charity
campaign. Postal Service employees make contributions through payroll deductions to
support eligible non-profit organizations that provide health and human services
throughout the world. The Postal Service Information Technology and Accounting
Services in Eagan, MN, is responsible for payroll coding and disbursing the
contributions to 198 campaigns.

The OPM correlates campaigns with work locations (cities, counties, and states). The
Postal Service has about 32,500 locations, of which about 1,400 are in work locations
with no official campaign. During the payroll period reviewed, about 85,800 Postal
Service employees contributed $904,100 to the campaigns through payroll deductions.
Contributions are submitted to the campaigns via electronic funds transfer. If the
electronic funds transfer is unsuccessful, a check is issued and mailed to the campaign.

Objectives, Scope, and Methodology

Our objectives were to:

    Assist the OPM in assessing the reasonableness of employee benefit withholdings
     and Postal Service benefit contributions in the Report of Withholdings and
     Contributions for Health Benefits, Life Insurance and Retirement, as well as
     enrollment information in the Supplemental Semiannual Headcount Report.

    Confirm the Combined Federal Campaign program accounting codes and payroll
     data with the OPM records.
14
  This timeframe included 57,975 employees who declined health benefits and 1,693 employees who waived life
insurance coverage.

                                                       5
Independent Report on Employee Benefits, Withholdings, Contributions,                               FT-AR-12-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management



To accomplish our objectives, we applied the agreed-upon procedures to the payroll
periods ending August 26, 2011, and February 24, 2012, coinciding with the
Supplemental Semiannual Headcount Report for September 2, 2011, and
March 2, 2012, respectively. We randomly selected another payroll period, ending
May 18, 2012, for additional testing. We limited our Combined Federal Campaign
testing to one payroll period ending February 24, 2012.

We confirmed Retirement and Insurance Transfer System data by verifying payroll
source documents. We reviewed personnel documents for 45 employees15 to verify
salaries, retirement, and the election or non-election of health benefits and life
insurance. For all employees, we independently calculated employee withholdings,
Postal Service contributions, and enrollment information for health benefits, life
insurance, and retirement. We compared the results to actual employee withholdings
and Postal Service contributions submitted to the OPM to determine whether
differences existed. For the Combined Federal Campaign program, we compared work
locations, accounting codes, and payroll deductions to the campaigns approved by the
OPM to identify differences.

We conducted this engagement from April through September 2012 in accordance with
the American Institute of Certified Public Accountants attestation standards and
generally accepted government auditing standards. The sufficiency of the agreed-upon
procedures is solely the responsibility of the inspector general and the chief financial
officer of the OPM. Consequently, we make no representation regarding the sufficiency
of the agreed-upon procedures either for the purpose for which this report has been
requested or for any other purpose. We discussed our observations and conclusions
with management on September 18, 2012, and included their comments where
appropriate.

We relied on computer-generated data from the Postal Service’s payroll system. To
validate the data, we traced the basic pay and benefit categories for selected
employees to supporting documentation and compared the results to the
computer-generated data. We determined that the data were sufficiently reliable for the
purposes of this report.




15
  The universe for sample selection does not include 148,510 employees who elected health benefits and basic life
insurance only (no optional coverage elected).

                                                        6
    Independent Report on Employee Benefits, Withholdings, Contributions,         FT-AR-12-013
     and Supplemental Semiannual Headcount Reporting Submitted to the
     Office of Personnel Management

    Prior Audit Coverage

                                                               Final
                                                              Report     Monetary
          Report Title             Report Number               Date       Impact
Independent Report on              FT-AR-11-012               9/29/11       $-0-
Employee Benefits,
Withholdings, Contributions,
and Supplemental
Semiannual Headcount
Reporting to the Office of
Personnel Management
Report Results: We identified differences between the health benefit election
information in payroll records and the Health Benefit Election Form for one
employee of the 10 reviewed; and life insurance election information in payroll
records and the Life Insurance Election form for one employee of the 25 reviewed.
We identified 58 of 209 Combined Federal Campaigns in the Postal Service’s
payroll system that had different campaign names and addresses from those the
OPM provided. We identified 587 of 100,613 employees whose campaign codes in
the Postal Service’s payroll system did not match the OPM’s campaign code
associated with the employee’s work location. This included four employees at work
locations that have no official campaign. We made no recommendations.
Independent Report on              FT-AR-10-013         9/22/10             $-0-
Employee Benefits,
Withholdings, Contributions,
and Supplemental
Semiannual Headcount
Reporting Submitted to the
Office of Personnel
Management
Report Results: We identified differences between life insurance election
information in payroll records and the Life Insurance Election form for two
employees of 25 reviewed. We made no recommendations.
Independent Report on              FT-AR-09-010         9/18/09             $-0-
Withholdings and
Contributions for Health
Benefits, Life Insurance,
Retirement, and Employee
Headcount Data
Report Results: We verified employee withholdings, employer contributions, and
enrollment information reported and transferred to the OPM for health benefits, life
insurance, and retirement. We did not identify any errors or differences that
exceeded the materiality limits the OPM established.


                                                       7
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-12-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

                           Appendix B: Agreed-Upon Procedures




                                                   8
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-12-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                   9
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-12-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                   10
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-12-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                   11
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-12-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                   12
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-12-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                   13
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-12-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                   14
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-12-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                   15
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-12-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                   16
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-12-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                   17
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-12-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                   18
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-12-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                   19
Independent Report on Employee Benefits, Withholdings, Contributions,                       FT-AR-12-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management



  Appendix C: Unmatched Combined Federal Campaign Names and Addresses

                                                                                      Differences




                                                                                                    Address
                                                                                 Inactive

                                                                                             Name



                                                                                                     Code
Code     Name/Address per Postal Service                Name/Address per OPM




                                                                                                      Zip
         Mobile Area                               Southwest Alabama
0006     PO Drawer 89                              218 Saint Francis St                       •     •   •
         Mobile, AL 36601-0089                     Mobile, AL 36602-2913
0113     29 Palms Area                             None Listed                      •
0198     Manasota                                  None Listed                      •
0216     Lowndes, Tift and Colquitt Counties       None Listed                      •
0231     Eastern Idaho/Western Wyoming             None Listed                      •
         Chicago Area                              Chicago Area
0249     44 E Main, Suite 208                      44 E Main, Suite 208                                 •
         Champaign, IL 31820-3649                  Champaign, IL 61820-3649
0285     Jefferson County                          None Listed                      •
0289     Michiana                                  None Listed                      •
0337     Salina                                    None Listed                      •
0377     Northeast Louisiana                       None Listed                      •
0428     Southeast Massachusetts                   None Listed                      •
0459     Muskegon County                           None Listed                      •
         Warren County                             Warren County
0507     PO Box 203                                PO Box 203                                           •
         Vicksburg, MS 39180-0203                  Vicksburg, MS 39181-0203
0541     Southwest Montana                         None Listed                      •
         Salisbury-Rowan Counties                  Rowan/Iredell Counties
0660     PO Box 5065                               PO Box 5065                                •
         Salisbury, NC 28147-0088                  Salisbury, NC 28147-0088
0735     Blair Huntington County                   None Listed                      •
0738     Greater Lehigh Valley                     None Listed                      •
0750     Centre/Clearfield Counties                None Listed                      •
0759     Westmoreland Area                         None Listed                      •
         Luzerne/Columbia Counties                 Northeast Pennsylvania
0760     8 W Market St, Suite 450                  8 W Market St, Suite 450                   •
         Wilkes-Barre, PA 18701-1808               Wilkes-Barre, PA 18701-1808
0763     Fayette County                            None Listed                      •
0775     Shaw-Sumter-Clar-Lee                      None Listed                      •
0790     Aberdeen Area                             None Listed                      •
0793     Fall River                                None Listed                      •
0806     West Tennessee                            None Listed                      •
         West Central Texas                        Greater West Texas
0830     PO Box 82                                 PO Box 82                                  •
         Abilene, TX 79604-0092                    Abilene, TX 79604-0092
0833     Southeast Texas                           None Listed                      •
0844     Galveston                                 None Listed                      •
0849     Midland-Odessa                            None Listed                      •


                                                   20
Independent Report on Employee Benefits, Withholdings, Contributions,                      FT-AR-12-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

                                                                                     Differences




                                                                                                   Address
                                                                                Inactive

                                                                                            Name
Code     Name/Address per Postal Service                 Name/Address per OPM




                                                                                                    Code
                                                                                                     Zip
         Badgerland                                 Badgerland
0957     2059 Atwood Ave                            2059 Atwood Ave                                    •
         Madison, WI 53707-6608                     Madison, WI 53704-6608
         Natrona County and Rural Wyoming
0970                                                None Listed                    •
         Area
0976     Virgin Islands                             None Listed                    •


 32                                        Totals                               25          4      1   4




                                                    21
Independent Report on Employee Benefits, Withholdings, Contributions,                              FT-AR-12-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

              Appendix D: Unmatched Combined Federal Campaign Codes

  Duty                                                                     Code
                                                                                          Code
 Station                                                                    per                    Number of
                      City                      County              State                  per
Finance                                                                   Postal                   Employees
                                                                                          OPM
Number                                                                    Service
010400       Ashland                   Clay                          AL    0002           0006           2
072380       Aurora                    Arapahoe                      CO    0990           0141           4
072384       Aurora                    Arapahoe                      CO    0990           0141           3
086052       Plymouth                  Litchfield                    CT    0162           0164           1
089490       Windsor                   Hartford                      CT    0990           0162           3
089495       Windsor                   Hartford                      CT    0432           0162           3
104070       Washington                District of Columbia          DC    0665           0990           1
104077       Washington                District of Columbia          DC    0665           0990           1
128308       Atlanta                   Fulton                        GA    0809           0211           1
166366       Pontiac                   Livingston                    IL    0193           0249           1
173588       Munster                   Lake                          IN    0283           0249           8
216569       New Orleans               Orleans                       LA    0845           0372           1
271534       Cleveland                 Bolivar                       MS    0506           None           4
274459       Louisville                Winston                       MS    0501           None           1
274615       McCarley                  Carroll                       MS    0501           None           1
275603       New Hebron                Lawrence                      MS    0500           None           1
337928       Bellmawr                  Camden                        NJ    0990           0580           1
350070       Albion                    Orleans                       NY    0630           0621           10
360096       Albemarle                 Stanly                        NC    0897           0655           3
362816       Franklin                  Macon                         NC    0990           None           1
450660       Blacksburg                Cherokee                      SC    0655           None           2
452520       Easley                    Pickens                       SC    0774           None           1
454720       Lamar                     Darlington                    SC    0773           None           1
457820       Saluda                    Saluda                        SC    0773           0212           1
473108       Fayetteville              Lincoln                       TN    0811           0004          1516
482145       Crosbyton                 Crosby                        TX    0095           None           1
482263       Dallas                    Dallas                        TX    0990           0839           3
487980       San Antonio               Bexar                         TX    0002           0852           1
545936       Nordland                  Jefferson                     WA    0931           0921           1
549156       Wenatchee                 Chelan                        WA    0924           0928           4
     30                                            Totals                                                81




16
  This coding error is resolved. As previously stated, Postal Service management confirmed with the OPM’s website
that in 2010, the Tennessee Regional Combined Federal Campaign added Lincoln County, TN, formerly part of the
Tennessee Valley Combined Federal Campaign. Therefore, a reportable difference does not exist.

                                                       22
